Department of Homeland Security
   Ofﬁce of Inspector General

            Transportation Security Administration's 
 

              Management Letter for FY 2010 DHS 
 

            Consolidated Financial Statements Audit 
 





OIG-11-58                                            March 2011
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                             Homeland
                                                             Security
                                           MAR 2 1 2011

                                              Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the Transportation Security Administration's Management Letter for
FY 2010 DHS Consolidated Financial Statements Audit. It contains 15 observations
related to internal control that were not required to be reported in the financial statement
audit report. The independent public accounting firm KPMG LLP (KPMG) performed
the integrated audit ofDHS' FY 2010 financial statements and internal control over
financial reporting and prepared this management letter. KPMG is responsible for the
attached management letter dated February 22,2011, and the conclusions expressed in it.
We do not express opinions on DHS' financial statements or internal control, or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appre9iation to all of those who contributed to
the preparation of this report.




                                               ~i~
                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




February 22, 2011


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security Transportation Security Agency
Washington, DC


Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS
or Department) as of September 30, 2010 and the related statement of custodial activity for the
year then ended (referred to herein as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to
audit the accompanying statements of net cost, changes in net position, and budgetary resources
for the year ended September 30, 2010 (referred to herein as other fiscal year (FY) 2010 financial
statements), or to examine internal control over financial reporting over the other FY 2010
financial statements.

Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion
on the FY 2010 financial statements and we were unable to perform procedures necessary to form
an opinion on DHS’ internal control over financial reporting of the balance sheet as of September
30, 2010 and the related statement of custodial activity for the year then ended. The
Transportation Security Administration (TSA) is a component of DHS. We noted certain matters
involving internal control and other operational matters, related to TSA, that are summarized in
the Table of Financial Management Comments on the following pages, and presented for your
consideration in Section I of this letter. These comments and recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. These comments are in addition to the significant
deficiencies presented in our Independent Auditors’ Report, dated November 12, 2010, included
in the FY 2010 DHS Annual Financial Report. A description of each internal control finding, not
related to information technology, and its disposition as either a significant deficiency or a
financial management comment is provided in Appendix A. Our findings related to information
technology systems security have been presented in a separate letter to the Office of Inspector
General and the TSA Chief Financial Officer and Chief Information Officer.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet as of September 30, 2010 or the statement of custodial activity of DHS for the year then
ended, and we were not engaged to audit the statements of net cost, changes in net position, and
budgetary resources for the year ended September 30, 2010. Accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the FY 2010 financial statements and had we been engaged to
audit the other FY 2010 financial statements. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be
useful to you.

TSA’s written response to our comments and recommendations has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ and TSA’s management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                                Transportation Security Administration
                              Table of Financial Management Comments
                                         September 30, 2010

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                               Page(s)

FMC 10-01   Warehouse Inventory System and Procedures                               2
FMC 10-02   Compliance with Human Resources Related Laws                             3
FMC 10-03   Accrued Payroll Controls                                                3
FMC 10-04   Accounts Receivable Controls                                             4
FMC 10-05   Compliance with the Debt Collection Improvement Act of 1996 (DCIA)      4
FMC 10-06   Ineffective Controls over the Time and Attendance Process                5
FMC 10-07   Fund Balance with Treasury Controls                                     6
FMC 10-08   Accounts Payable Process                                               6-7
FMC 10-09   Untimely Update of Asset Transfers                                       7
FMC 10-10   Undelivered Orders (UDO) Documentation                                 7-8
FMC 10-11   Grant Monitoring and Compliance with the Single Audit Act                9
FMC 10-12   Review of Journal Entries                                               9
FMC 10-13   Review of Service Organizations’ Internal Controls                     9-10
FMC 10-14   Accounts Payable Balance                                                10
FMC 10-15   Lease Accounting and Disclosure                                       10-11



                                           APPENDIX
Appendix    Subject                                                              Page(s)

   A        Crosswalk – Financial Management Comments to Active NFRs             12-13
   B        Status of Prior Year NFRs                                            14-15
   C        Management Response                                                   16




                                                   1
 

                                                                                              Section I
                              Transportation Security Administration
                                Financial Management Comments
                                       September 30, 2010


FMC 10-01 – Warehouse Inventory System and Procedures (NFR No. TSA 10-01)

      During our walkthrough of the warehouse inventory system and related processes, we noted that
      the Transportation Security Administration (TSA) did not have documented policies and
      procedures to ensure that the warehouse management system, supported by a third party
      contractor, and related outputs were adequately controlled, monitored, and reconciled to TSA’s
      system of record. Specifically we noted that:
      �	 The third party contractor’s inventory system (Warehouse Librarian) password settings did
          not meet the password requirements required per DHS policy including:
          �	 Password length;
          �	 Password strength and complexity;
          �	 Failed password attempts; and
          �	 Password expiration.
      �	 The third party contractor was not performing monthly audit log reviews of the Warehouse
          Librarian system. The Warehouse Librarian has the ability to log the system’s activities.
          However, these logs are not being reviewed by anyone from the third party contractor or
          TSA.
      �	 The Warehouse Librarian System does not lock out application users after 90 days of
          inactivity.
      �	 The daily tape back-up of the Warehouse Librarian System’s data was stored in the same
          room as the server that hosts the production data.
      �	 Reconciliations between the third party contractor’s system and the Sunflower Asset
          Management System (SAMS) were not fully implemented to include the following:
          �	 Reviews to ensure the assets queried from SAMS and the third party contractor for
              reconciliation is complete and accurate (agrees to the general ledger (GL), includes the
              correct date fields, assets, etc.).
          �	 Reviews to ensure the reconciliation is accurate (mathematically, etc.).
          �	 Processes to ensure any significant reconciling items are resolved, recorded, and reviewed
              on a timely basis.

      Recommendations:
      We recommend that TSA:
      �	 Adopt DHS password security length and complexity requirements for Warehouse Librarian
         with the exception of special characters since Warehouse Librarian will not accept special
         characters in a password string.
      �	 Set Warehouse Librarian passwords to expire every 180 days.
      �	 Review Warehouse Librarian logs on a monthly basis, at a minimum.
      �	 Update warehouse operating procedures to require that Warehouse Librarian accounts are
         manually disabled for any employees following 90 days of inactivity or upon termination of
         employment at the third party contractor, whichever is sooner.
      �	 Prepare an addendum to the Security Equipment Management Manual (SEMM) to describe
         the reconciliation process.




                                                 2
 

                                                                                             Section I
                               Transportation Security Administration
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-02 – Compliance with Human Resources Related Laws (NFR No. TSA 10-02)

       TSA did not fully implement processes and controls to ensure that payroll calculations and
       employee’s annual leave balances were properly recorded and supported by available
       documentation. In performing our compliance procedures over payroll transactions, we identified
       the following:
       �	 1 Federal Employees’ Group Life Insurance (FEGLI) error as the FEGLI calculation per the
           payroll did not agree with the FEGLI calculator provided on the Office of Personnel
           Management (OPM) website.
       �	 3 instances where updated Federal Employees Health Benefits (FEHB) enrollments were not
           included in the eOPF as required by policy, however supporting documentation was available
           once requested.
       �	 3 Thrift Savings Plan (TSP) errors as the TSP deduction was unsupported by an election form
           or substitute documentation.
       �	 1 error where a FEGLI form was not included in the electronic official personnel file (eOPF)
           and the employee had elected coverage other than standard basic.
       �	 9 errors where an employee had a discrepancy between the annual and sick leave balances
           listed per the Statement of Earnings and Leave and the webTA timesheet.

       Recommendations:
       We recommend that TSA:
       �	 Verify all supporting documentation for benefit elections are uploaded in the official
          personnel file (OPF) in a timely manner for both new hires and employee changes.
       �	 Implement procedures to ensure that payroll calculations, elections, and changes in annual
          leave are properly calculated and recorded based on retained supporting documentation.
       �	 Through the use of random leave reviews, ensure compliance with record retention, verify
          proper administration of employee’s leave election and validate the accuracy of changes made
          to employees leave balances.

FMC 10-03 – Accrued Payroll Controls (NFR No. TSA 10 -03)

       During our walkthrough of the accrued payroll process, we noted that TSA:
       �	 Did not have adequate policies and procedures to ensure that TSA’s Human Resources (HR)
          provider performed a quality assurance over the processing of employee retirements.
       �	 Did not have adequate policies and procedures to ensure that TSA’s HR provider performed
          sufficient quality assurance (QA) over the entry of personnel changes.

       Recommendations:
       We recommend that TSA:
       �	 Work with the service provider to implement a quality review process for retirements
       �	 Continue to implement improvements and monitor Lockheed Martin’s QA process and
          conduct a separate Federal QA process.




                                                 3
 

                                                                                                Section I
                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2010


FMC 10-04 – Accounts Receivable Controls (NFR No. TSA 10 -04)

      During our walkthrough of the accounts receivable process, we noted the following:
      �	 TSA did not have documented policies and procedures in place to ensure a detailed review of
         the bankruptcy portion of the allowance for doubtful accounts and to ensure that all
         bankruptcy claims and payments received by TSA were completely and accurately updated in
         the analysis.
      �	 TSA’s air carrier audit procedures were not properly designed to ensure the fees remitted and
         used for the accounts receivable balance calculation are complete and accurate. Specifically,
         we noted the selection of carriers for audit is not formally documented based on factors such
         as risk and adequate coverage. Additionally, procedures were not in place to ensure the
         results of the carrier audits selected were received and reviewed timely. We noted that the
         United Airlines audit was not completed timely (the audit was conducted in August of fiscal
         year (FY) 2009 and was not available in May 2010).

       Recommendations:
       We recommend that TSA:
       �	 Review and update existing procedures to ensure timeliness of the air carrier audits.
       �	 Review and update existing documentation to include risk assessment analysis upon which
          selection of air carriers for audit will be based.
       �	 Review and update existing procedures to ensure completeness of the bankruptcy portion of
          the allowance of doubtful accounts analysis.

FMC 10-05 – Compliance with the Debt Collection Improvement Act of 1996 (DCIA)
(NFR No. TSA 10-06)

       During FY 2010 TSA developed policies and procedures to address prior year non-compliance
       with DCIA. We noted however, the policy was not properly designed to ensure full compliance
       with the provisions of DCIA for FY 2010. Specifically, we noted the policy stated that the Office
       of Revenue will identify all delinquent debt greater than 180 days old for which demand letters
       have been sent; however, the policy does not address debts that are past due over 180 days where
       the demand letters have not been sent. TSA began cleanup activity of transferring debt to
       Treasury in late FY 2009 that continued into FY 2010. We note that the law specifically applies
       to past due, legally enforceable non-tax debt over 180 days (regardless of whether a demand letter
       has been sent).

       Specifically we noted the following instances of non-compliance:
       �	 For 58 of 65 sample items selected, we noted that the demand letters were not sent to the
          debtor in a timely fashion.
       �	 For 18 of 65 sample items selected, we noted that TSA did not refer debt outstanding 180
          days or greater to the Department of the Treasury in a timely manner.
       �	 For 26 of 65 sample items selected, we noted that TSA did not refer debt outstanding 180
          days or greater to the Department of the Treasury.

       Recommendation:
       We recommend that TSA review and update existing policies to identify all debt past due and
       issue demand letters in full compliance with DCIA.


                                                   4

                                                                                               Section I
                               Transportation Security Administration
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-06 – Ineffective Controls over the Time and Attendance Process (NFR No. TSA 10-08)

       During our testwork over the time and attendance process, and our review of the related
       supporting documentation we noted the following conditions:
       �	 Controls over the review, approval, and retention of annual leave request forms were not
          operating effectively. Specifically:
               �	 7 of 8 airports maintained the WebTA leave request submission, TSA’s equivalent of
                    OPM Form-71, Request for Leave or Approved Absence, with time sheet
                    documentation, rather than destroying this form once reviewed and approved by the
                    employee and supervisor as noted in TSA’s policy.
               �	 1 leave request was not dated by the supervising approver evidencing timely review
                    and approval of the leave.
       �	 Controls over the review and approval of timesheets were not operating effectively.
          Specifically, we noted:
               � Supervisor review and approval of timesheet was not dated (5 Instances):
                        �	 1 of 80 overtime requests was not dated by the approver evidencing timely
                            review and approval.
                        �	 4 of 80 timesheets were not dated by the approver evidencing timely review
                            and approval.
               �	 Timesheet was not signed by the employee (1 Instance):
                        �	 1 of 80 instances where the timesheet was not signed by the employee,
                            despite leave taken.
               �	 Untimely approval (2 Instances):
                        �	 1 of 80 instances when the timesheet was approved on March 13, 2010.
                            However the employee did not sign their timesheet until July 27, 2010.
                        �	 1 of 80 instances where the timesheet was signed 8 days prior to period end.
               �	 Discrepancies between timesheet and supporting documentation (1 Instance):
                        �	 1 of 80 instances where the supervisor approved overtime totaling 11 hours,
                            however, the timesheet submitted only showed 10 hours of overtime worked.
       �	 Policies and procedures were not properly implemented at the airport sites to ensure data
          entered into WebTA by timekeepers, once the supervisor had reviewed and approved the
          employee’s timesheet was accurate. Specifically we noted that a review of the employee’s
          timesheet was not performed by certifiers to ensure time is entered accurately into the system
          at all locations.

       Recommendations:
       We recommend that TSA:
       �	 HRAccess personnel train appropriate personnel on time and attendance processing and
          proper retention of payroll related documents.
       �	 Supplement online training for timekeepers and supervisors to sufficiently document
          prerequisite knowledge required to perform job functions in accordance with TSA Office of
          Human Capital Time and Attendance Administration Manual.




                                                  5
 

                                                                                               Section I
                               Transportation Security Administration
                                 Financial Management Comments
                                        September 30, 2010



FMC 10-07 – Fund Balance with Treasury Controls (NFR No. TSA 10-10)

      During our walkthrough of the fund balance with Treasury process, we noted the there were no
      formal documented procedures and controls in place throughout the year to ensure that the
      Segregation of Duties query included all entries processed throughout the fiscal year. The
      Segregation of Duties query was used by TSA personnel to determine the individuals who enter
      and approve warrants, transfers, and rescissions into the Budget Execution Module were properly
      segregated. As a result, there was the potential for an individual to both enter and approve a
      warrant, transfer, or rescission into the Budget Execution Module without it being detected and
      corrected in a timely manner.

      Recommendations:
      We recommend that TSA:
      �	 Perform a monthly review of budget execution transactions to ensure separation of duties
         between the approver and preparer.
      �	 Expand the monthly review to include a quarterly reconciliation of warrant, transfer, and
         rescission transactions from the budget execution query report to the Core Accounting System
         (CAS) to ensure completeness of the budget execution query report.

FMC 10-08 – Accounts Payable Process (NFR No. TSA 10-12)

      During our walkthrough of the accounts payable (AP) process, we noted:
      �	 In the March 31, 2010 Financial Reporting Certification, TSA qualified its certification as the
         process for accruing for Other Transaction Agreements (OTAs) was being modified. As a
         result, TSA did not send confirmations for OTA’s and did not record a full accrual.
         Specifically, TSA stated: “Accounts Payable: TSA did not record a full accrual for accounts
         payable related to OTAs. TSA has modified its process for performing this accrual but did
         not send out confirmations to the vendors for the March reporting period.”
      �	 The contracting officer’s technical representative’s (COTR) or contracting officer’s (CO)
         review of intragovernmental payment and collection (IPAC) transactions was not properly
         designed to ensure documented timely review.
      �	 The AP subledger to GL reconciliation was not properly designed to ensure documented
         timely review.
      �	 A lack of documented policies that ensure the results of the annual look-back analyses of the
         prior year balances are reviewed by management, discussed with management and
         appropriate adjustments taken, if appropriate

      Recommendations:
      We recommend TSA:
      �	 Prepare quarterly OTA AP accruals.
      �	 Develop timelines for the AP accrual process during the first quarter of FY 2011 for the entire
         year, communicate to staff involved, and monitor through completion.
      �	 Require management to note its approval of the AP subsidiary to GL reconciliation by either
         signature or email.




                                                  6

                                                                                                   Section I
                                 Transportation Security Administration
                                   Financial Management Comments
                                          September 30, 2010


      �	 Conduct an annual look back analysis at the prior year OTA accrual and require management
         to note its review of the look back by either signature or email.
      �	 Develop processes and procedures for the COTR to review IPACs.
      �	 Review existing Internal Standard Operating Procedures (ISOP) and policies regarding AP
         accruals and update to reflect the recommendations as needed.

FMC 10-09 – Untimely Update of Asset Transfers (NFR No. TSA 10-15)

       TSA personnel did not consistently adhere to its policy requiring the timely update of the
       Sunflower Asset Management System and retention of supporting documentation.

       Specifically, we noted the following instances where assets were not physically located at the
       location listed in TSA’s SAMS and TSA was unable to provide supporting documentation
       evidencing the transfer of the asset:
       �	 5 instances where assets were transferred from Seattle airport prior to the date of the site visit.
           TSA was unable to provide transfer documentation and noted SAMS was not updated timely
           to reflect these transfers.
       �	 2 instances where assets were transferred from the Houston airport to the warehouse and TSA
           was unable to provide documentation to track the movement of the equipment.

       Recommendations:
       We recommend that TSA:
       �	 Update its policies and procedures to ensure proper timing of the recording of property
          transfers between locations in SAMS.
       �	 Develop policies and procedures for adequate documentation of the pick-up and delivery of
          TSA property to include training of all required personnel.
       �	 Ensure transactions only occur upon the physical movement and receipt of TSA property.
       �	 Develop and monitor metrics to ensure transactions are being completed timely and properly
          and the proper documentation is completed as necessary.

FMC 10-10 – Undelivered Orders (UDO) Documentation (NFR No. TSA 10-16)

       TSA lacked sufficient internal controls to ensure proper adherence to contract management
       policies, procedures, and controls.

       Specifically, we noted the following instances where the balance or general ledger activity was 
 

       recorded improperly:
 

       As of June 30, 2010:
 

       �	 One IPAC return was applied to the wrong contract thus overstating the selected purchase
           order balance by $17,525.
       �	 One UDO where the period of performance (POP) for this contract expired on March 10,
           2008. KPMG noted that a modification to de-obligate the remaining funds was executed in
           September 2008 but was never recorded in the General Ledger. As such, we noted that the
           balance was overstated by $6,949,250.
       �	 One item where the balance per the obligating document was $3,829,480; however the
           balance per the GL was $4,429,480.



                                                     7

                                                                                       Section I
                        Transportation Security Administration
                          Financial Management Comments
                                 September 30, 2010


As of August 31, 2010:
� One sample item where the transaction line of obligation activity was $23 understated.
As of September 30, 2010:
�	 One item where the transaction line of obligation activity was $5,383 understated.
�	 One item where the transaction line of obligation activity was $18,483 overstated.
�	 One item where the transaction line of obligation activity was $370 overstated.
� One item where the obligation balance was not initiated for deobligation timely.
 

Additionally, we noted controls were not always operating effectively or according to policies.
 

Specifically, we noted instances where:
 

�	 Obligations were recorded in the GL prior to execution.
    �	 8 instances in June 30, 2010 testwork
    �	 1 instance in August 31, 2010 testwork
    �	 2 instances in September 30, 2010 testwork
�	 The obligating document was not posted to the GL timely.
    �	 3 instances in June 30, 2010 testwork
    �	 2 instances in August 31, 2010 testwork
    �	 3 instances in September 30, 2010 testwork
�	 The object class is incorrectly coded.
    �	 30 instances in June 30, 2010 testwork
    �	 1 instance in August 31, 2010 testwork
    �	 1 instance in September 30, 2010 testwork
�	 TSA incurred and paid charges related to services provided outside of the POP for the
    contract.
    �	 1 instance in September 30, 2010 testwork
�	 TSA recorded transactions which resulted in the obligation having a negative balance.
        1 instance in the amount of $131,426 in September 30, 2010 testwork.

Recommendations:
We recommend that TSA:
�	 Review existing policies and procedures to ensure that modifications for de-obligation of
   funds that pertain to expired option periods for active contracts are put into place.
�	 Review existing policies and procedures for contracting actions released by the CO in the
   Contract Information Management System to ensure they are adhered to and properly
   documented.
�	 Review existing policies and procedures for object classes to ensure TSA program business
   management offices are utilizing the proper object class codes on purchase requisitions and
   provide training to the user community.
�	 Review reclassification procedures to ensure sufficient controls are implemented to ensure
   that reclassifications are properly recorded.
�	 Review policies and procedures for entering manual obligations in the general ledger to
   ensure timely posting of obligations.




                                           8
 

                                                                                                Section I
                                Transportation Security Administration
                                  Financial Management Comments
                                         September 30, 2010



FMC 10-11 – Grant Monitoring and Compliance with the Single Audit Act (NFR No. TSA 10-23)

       As a result of audit follow up on prior-year finding, TSA developed written policies and
       procedures for monitoring certain types of grants and grant expenditures. However, we noted that
       formal written policies, procedures, and controls for the monitoring of expenditures associated
       with the Canine and Law Enforcement Officer (LEO) programs along with OTAs and Letters of
       Intent (LOIs) were not in place throughout the year or documented in a centralized
       comprehensive manner.

       Recommendation:
       We recommend that TSA develop policies and procedures to monitor expenditures and work
       performed related to other transaction agreements for the Canine and LEO programs as well as
       OTAs and LOIs.

FMC 10-12 – Review of Journal Entries (NFR No. TSA 10-26)

       TSA’s controls were not fully effective in FY 2010 to ensure that journal entry reviews were
       effective and supporting documentation was readily available. Specifically, we noted two
       instances related to property entries where supporting documentation used during the review of
       the journal entry was not filed and as such, was not readily available upon request. Additionally,
       we noted both entries were approved as reversing, however, they should not have been reversing
       entries. A subsequent entry had to be posted to correct the error. The specific entries are as
       follows:
       �	 One item did not have a supporting memorandum of record readily available that tied to the
           entry. Additionally, this entry was incorrectly coded as a reversing entry and was not
           corrected via the review and approval process prior to posting the initial entry. We noted a
           subsequent entry (in a different reporting month) had to be posted to correct the reversal.
       �	 One item did not have appropriate supporting documentation readily available that tied to the
           entry. Additionally, this entry was incorrectly coded as a reversing entry and was not
           corrected via the review and approval process prior to posting the initial entry. We noted a
           subsequent entry (in a different reporting month) had to be posted to correct the reversal.

       Recommendations:
       We recommend that TSA:
       �	 Review and update ISOP as necessary.
       �	 Provide training on journal entry procedures to new hires as well as refresher training for
          current employees.
       �	 Have the Internal Control Branch continue to perform reviews of the journal entry process.

FMC 10-13 – Review of Service Organizations’ Internal Controls (NFR No. TSA 10-27)

       During FY 2010, TSA was unable to fully demonstrate the impact of its service providers’ control
       environment on TSA’s control environment. Specifically, Lockheed Martin’s control
       environment was not evaluated for the impact on TSA’s environment. In addition, a period
       update from the Statement on Auditing Standards (SAS) 70 report issuance date to the DHS



                                                   9
 

                                                                                                Section I
                               Transportation Security Administration
                                 Financial Management Comments
                                        September 30, 2010


       balance sheet date was not documented for United States Department of Agriculture’s (USDA)
       National Finance Center’s (NFC) control environment.

       Recommendations:
       We recommend that:
       �	 The Office of Financial Management, Internal Control Branch continue to work with the
          Office of Human Capital to evaluate Lockheed Martin’s control environment.
       �	 The Office of Financial Management, Internal Control Branch continue to follow the DHS
          issued policy and work with DHS to receive and review the period update for the NFC SAS
          70 report.

FMC 10-14 – Accounts Payable Balance (NFR No. TSA 10-29)

      Controls over the accounts payable accrual process were not fully effective, which resulted in
      errors to the balance sheet as of September 30, 2010. For example we noted that:
          �	 The property accrual was understated in the draft financial statements due to unconfirmed
               or estimated vendors being excluded from analysis. Once identified, TSA reevaluated the
               need for an additional accrual related to incurred but unreported expenditures.
          �	 The non-Federal accounts payable accrual was overstated in the draft financial statements.
               Data collected for the statistical calculation of the non-Fed accounts payable accrual
               inappropriately included and excluded certain vendors.

       Recommendations:
       We recommend that TSA:
       �	 Review and update the property accounts payable accrual ISOP.
       �	 Perform look backs on general non-Federal accounts payable to determine reasonableness of
          the accrual estimate.
       �	 Review and update the general non-Federal accounts payable procedures ISOP as necessary.
       �	 Develop and record accounts payable accruals on a quarterly basis.
       �	 Have the Internal Control Branch continue to perform reviews of the accounts payable
          accrual process.

FMC 10-15 – Lease Accounting and Disclosure (NFR No. TSA 10-30)

      During our testwork over leases, we noted fully effective controls were not in place for the entire
      year to ensure:
      �	 The future minimum lease payments excluded amounts un-related to rental payments. We
         noted one instance where payments made for leasehold improvements were improperly
         included the footnote disclosure.
      �	 We noted three instances where improvements paid for by TSA were included in the deferred
         rent liability calculation; two of these instances were corrected prior to year-end.

       Recommendations:
       We recommend that TSA:
       �	 Review and document lessons learned from the FY 2010 cleanup and review activity for
          identifying and accounting for leases.



                                                  10

                                                                                    Section I
                       Transportation Security Administration
                         Financial Management Comments
                                September 30, 2010


�	 Review the lease and leasehold improvement ISOPs and revise the straight-line analysis and
   deferred rent liability calculations.
�	 Implement and maintain processes for recording leases and leasehold improvements.
�	 Have the Internal Control Branch perform periodic reviews of lease and leasehold
   improvement activity.




                                         11
 

                                                                                                                 Appendix A
                                    Transportation Security Administration
                             Crosswalk - Financial Management Comments to NFRs
                                              September 30, 2010


                                                                                                    Disposition1
                                                                                                   IAR              FMC
       NFR No.                                    Description                               MW       SD     NC      No.
         10-01       Warehouse Inventory System and Procedures                                                      10-01
         10-02       Compliance with Human Resources Related Laws                                                   10-02
         10-03       Accrued Payroll Controls                                                                       10-03
         10-04       Accounts Receivable Controls                                                                   10-04
         10-05       Ineffective Controls at the Dallas Warehouse                            D
         10-06       Noncompliance with Debt Collection Improvement Act of 1996                                     10-05
                     Policies and Procedures over the Property, Plant, and Equipment
         10-07                                                                               D
                     (PP&E) Process
         10-08        Ineffective Controls Over the Time and Attendance Process                                     10-06
         10-09       PP&E Site Visits                                                        D
         10-10       Fund Balance with Treasury Controls                                                            10-07
         10-11       Lack of Policies and Procedures Over Internal Use Software              D
         10-12       Accounts Payable Process                                                                       10-08
         10-13       Incorrect Trading Partner Codes                                         A
         10-14       Accounting for Other Direct Costs Incurred in FY 2009 and Prior         D
         10-15       Untimely Update of Asset Transfers                                                             10-09
         10-16       Undelivered Orders Documentation                                                               10-10
         10-17       Entity-Level Controls                                                  A, D
         10-18       Number not used                                                               Not applicable
         10-19       Reporting PP&E                                                          D
         10-20       Financial Reporting Deficiencies                                        A
                     Non-Compliance with the Federal Financial Management
         10-21                                                                                               J
                     Improvement Act of 1996
         10-22       Number not used
                     Grant Monitoring and Compliance with OMB Circular No. A-133,
         10-23                                                                                                      10-11
                     Audit of Sales, Local Governments and Nonprofit Organizations
         10-24       Number not used                                                               Not applicable
         10-25       Number not used                                                               Not applicable
         10-26       Review of Journal Vouchers                                                                     10-12
         10-27       Review of Service Organizations’ Internal Controls                                             10-13
         10-28       Number not used                                                               Not applicable
         10-29       Accounts Payable Balance                                                                       10-14
         10-30       Lease Accounting and Disclosure                                                                10-15


1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 12, 2010
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components



                                                                12
                                                                                                              Appendix A
                                    Transportation Security Administration
                             Crosswalk - Financial Management Comments to NFRs
                                              September 30, 2010


NC	       Contributed to Noncompliance with laws,regulations, contracts, and grant agreements at the Department level when
         combined with the results of all other components
NFR	 	    Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	 	      Financial Management and Reporting
B	 	      Information Technology Controlsand System Functionality
C	 	      Fund Balance with Treasury
D	 	      Property, Plant, and Equipment
E	 	      Actuarial and Other Liabilities
F	 	      Budgetary Accounting
G	 	      Other Entity-Level Controls
H	 	       Custodial Revenue and Drawback
I	 	      Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and Laws and Regulations Supporting OMB Circular
          No. A-50, Audit Followup, as revised
J	 	      Federal Financial Management Improvement Act of 1996 (FFMIA)
K	 	      Single Audit Act Amendments of 1996
L	 	      Chief Financial Officers Act of 1990 (CFO Act)
M	 	      Antideficiency Act, as amended (ADA)
N	 	      Government Performance and Results Act of 1993 (GPRA)




                                                            13
 

                                                                                             Appendix B
                             Transportation Security Administration
                                   Status of Prior Year NFRs
                                      September 30, 2010


                                                                                  Disposition1
                                                                                          Repeat
NFR No.                                Description                         Closed2
                                                                                     (2010 NFR No.)
 09-01    Number not used                                                        Not applicable
 09-02    Number not used                                                        Not applicable
 09-03    Number not used                                                        Not applicable
 09-04    Incorrect Trading Partner Codes                                               TSA 10-13
 09-05    Undelivered Orders Documentation                                              TSA 10-16
 09-06    Number not used                                                        Not applicable
 09-07    Number not used                                                        Not applicable
 09-08    Number not used                                                        Not applicable
 09-09    Financial Reporting Deficiencies                                              TSA 10-20
 09-10    Required Supplementary Stewardship Information                     X
          Non-Compliance with Debt Collection Improvement Act (DCIA) of
 09-11                                                                                  TSA 10-06
          1996
 09-12    Number not used                                                        Not applicable
 09-13    Noncompliance with FFMIA                                                      TSA 10-21
 09-14    Noncompliance with FMFIA                                           X
          Grant Monitoring and Compliance with OMB Circular No. A-133,
 09-15                                                                                  TSA 10-23
          Audit of Sales, Local Governments, and Nonprofit Organizations
 09-16    Noncompliance with Human Resources Related Laws                               TSA 10-02
 09-17    Number not used                                                        Not applicable
 09-18    Ineffectiveness of Controls over the Time & Attendance Process                TSA 10-08
 09-19    Policies and Procedures to Ensure Compliance with GAAP             X
 09-20    Number not used                                                        Not applicable
 09-21    Untimely Update of Asset Transfers                                            TSA 10-15
 09-22    Warehouse Property Impairment                                      X
 09-23    Number not used                                                        Not applicable
 09-24    Review of Journal Vouchers                                                    TSA 10-26
 09-25    Review of Service Organizations’ Internal Controls                            TSA 10-27
 09-26    Incorrect Classification of Obligations as Fed or Non-Fed          X
 09-27    Accounts Payable Balance                                                      TSA 10-29
 09-28    Reporting PP&E                                                                TSA 10-19
 09-29    Entity-Level Controls                                                         TSA 10-17
 09-30    Lease Accounting and Disclosure                                               TSA 10-30
 09-31    Ineffective Controls at the Dallas Warehouse                                  TSA 10-05
 09-32    GAO Checklist Review                                               X
 09-33    PP&E Site Visits                                                              TSA 10-09
 09-34    Fund Balance with Treasury Controls                                           TSA 10-10
          Lack/Ineffectiveness of Controls over the Accounts Receivable
 09-35                                                                                  TSA 10-04
          Process
 09-36    Controls over Payroll Procedures                                              TSA 10-03
 09-37    Procurement Controls                                               X



                                                     14
 

                                                                                                    Appendix B
                                     Transportation Security Administration
                                           Status of Prior Year NFRs
                                              September 30, 2010


                                                                                          Disposition1
                                                                                                  Repeat
       NFR No.                                 Description                         Closed2
                                                                                             (2010 NFR No.)
        09-38      Policies and Procedures over the PP&E Process                                TSA 10-07
        09-39      Accounts Payable Controls                                                    TSA 10-12
        09-40      Lack of Policies and Procedures over the Deployment of IUS                   TSA 10-11
        09-41      Unavailability of Supporting Documentation                         X
        09-42      Net Position Controls                                              X

1
  KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and
for the year ended September 30, 2010, and was not engaged to perform an audit over the statement of net cost,
statement of changes in net position, and statement of budgetary resources for the year ended September 30, 2010.
In addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies
reported in KPMG’s Independent Auditors’ Report dated November 13, 2009.
2
 NFRs were closed either through remediation of the findings or that we were not engaged to follow up on active
NFRs that did not support significant deficiencies reported in KPMG’s Independent Auditors’ Report dated
November 13, 2009.




                                                             15
 

                                                                                                                Appendix C
                              Transportation Security Administration
                                 Management Response to the
 

                                    Management Letter
 





                                                                           Qf1Ia., FIif.1Oa.U AIinllIIblr....
                                                                          "I So.I~ Uo. SC_', "TS.'-U
                                                                          Am.'..... VA 1l598-6tU

                                                                          TransJ?Ortation
                                                                          SecurIty
                                                                          Admi.niStration


Anne L.. Richards
Assistanllnspector General for Audits
Depamnent of Homeland Security
OffICe or Inspector General
245 MUl'TlIIY Lane, SW
Buikling410
Washington. IX: 20528

Dear Ms. Ricluards;

        Thank)'OO ror the opportunity to cornmenl on the Draft Report: Manogement Utter.for the FY20JO
Transportation Suurity Adminisrrotion's Financial S!altfMnt Audit. TSA CODl:urs with all filldings and
recommendations oudined in the repon and has conftrmed that the report agrees with lhe individual NFRs
iS5ucd by the independent auditors, KPMG. We are eurrently in process or implementing the Mission Action
Plans (MAPs) which address the audit recommendations. Again, TSA appreciates the opportunity 10 review
the report, and we look forwanl to working with )'Our team during the upcoming FY 2011 Financial Staternem
Audit.



                                               Sincerely,



                                                a I          \) on
                                               Assistant Administrator and Chief Financial Officer
                                               Otlice of Finance and Administration




File; 1000.2.1-a




                                                   16
 

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
